           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


  ADMINISTRATIVE COSTS CLAIMED BY
    THE NORTH DAKOTA DISABILITY
      DETERMINATION SERVICES

      April 2012   A-06-11-11159




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                           SOCIAL SECURITY
MEMORANDUM

Date:      April 9, 2012                                                         Refer To:

To:        Sean Brune
           Regional Commissioner
            Denver

From:      Inspector General

Subject:   Administrative Costs Claimed by the North Dakota Disability Determination Services
           (A-06-11-11159)


           OBJECTIVE
           For our audit of Federal Fiscal Year (FY) 2009 and 2010 administrative costs claimed
           by the North Dakota Disability Determination Services (ND-DDS), our objectives were to

           •   evaluate ND-DDS’ internal controls over the accounting and reporting of
               administrative costs;

           •   determine whether costs claimed were allowable and funds were properly drawn;
               and

           •   assess limited areas of the general security controls environment.

           BACKGROUND
           Disability determination services (DDS) in each State or other responsible jurisdiction
           perform disability determinations under the Social Security Administration’s (SSA)
           Disability Insurance and Supplemental Security Income programs. Such determinations
           must be performed in accordance with Federal law and regulations.1 Each DDS is
           responsible for determining claimants’ disabilities and ensuring adequate evidence is
           available to support its determinations.

           To make proper disability determinations, SSA authorizes each DDS to purchase
           medical examinations, x rays, and laboratory tests on a consultative basis to
           supplement evidence obtained from the claimants’ physicians or other treating sources.
           SSA reimburses the DDS for 100 percent of allowable reported expenditures up to its
           1
            Social Security Act §§ 221 and 1614, 42 U.S.C. §§ 421 and 1382c; 20 C.F.R. §§ 404.1601, et seq. and
           416.1001, et seq.
Page 2 – Sean Brune

approved funding authorization, based on a State Agency Report of Obligations for SSA
Disability Programs (Form SSA-4513). See Appendix B for additional scope and
methodology.

RESULTS OF REVIEW
ND-DDS’ internal controls over the accounting and reporting of administrative costs
ensured costs claimed were allowable and funds were properly drawn. Our limited
review of ND-DDS’ controls over its physical security showed that controls were in place
and effective. However, on several occasions, ND-DDS exceeded its approved
obligation authority.

ND-DDS EXCEEDED OBLIGATION AUTHORITY

ND-DDS obligated funds in excess of its approved authority. SSA places cumulative
limits on the amount of obligation authority made available to State agencies. States
may not incur or make expenditures for items of cost not approved by SSA or in excess
of the amount SSA makes available to the State. 2 However, our review of Forms SSA-
4513 ND-DDS submitted during FYs 2009 and 2010 indicated that ND-DDS exceeded
its approved obligation authority by as much as $591,768.

                             Table 2: ND-DDS Obligation Discrepancies
                                                       Cumulative                  Amount that
                                    Obligation    Obligations Reported              Obligations
        Reporting Period            Authority         on SSA-4513               Exceeded Authority 3
                                               FY 2009
October–December 2008                $616,668            $642,694                        $26,026
            April–June 2009         $1,348,268              $1,940,036                 $591,768
October–December 2009               $2,587,838              $2,612,738                   $24,900
       January–March 2010           $2,612,738              $2,613,024                      $286
            April–June 2010         $2,613,024              $2,613,930                      $906
                                                 FY 2010
      July–September 2010           $2,991,992              $2,998,925                    $6,933
October–December 2010               $2,998,925              $3,051,411                   $52,486
       January–March 2011           $3,051,411              $3,052,328                      $917
            April–June 2011         $3,052,328              $3,052,870                      $542




2
    SSA, POMS, DI 39506.001 A (March 12, 2002).
3
    SSA subsequently authorized increased funding for the exact amount of the over-obligated amounts.
Page 3 – Sean Brune


An ND-DDS official stated that the DDS did not have a direct connection between the
State fiscal department and VERSA. 4 The DDS legacy accounting system did not
provide a precise report of obligations; therefore, the DDS reported some obligations
based on manual calculations. As a result, ND-DDS did not record all obligations in the
month or, in some cases, the FY incurred. Consequently, ND-DDS based monthly
obligations reported to SSA on expenditures instead of obligations. This resulted in
SSA establishing obligation authority in amounts lower than needed to cover all
administrative expenses. ND-DDS officials stated they were examining the expense
reporting process and planned to implement changes to improve obligation reporting
timeliness.

CONCLUSION AND RECOMMENDATION
Internal controls over the accounting and reporting of administrative costs ensured costs
claimed were allowable and funds were properly drawn. However, on several
occasions during FYs 2009 and 2010, ND-DDS exceeded its obligation authority. As a
result, we recommend that SSA instruct ND-DDS to continue working to improve
obligation reporting timeliness and accuracy.

AGENCY COMMENTS
Both SSA and ND-DDS agreed with the recommendation. See Appendix D for the full
text of SSA’s comments and Appendix E for the full text of ND-DDS’ comments.




                                               Patrick P. O’Carroll, Jr.




4
  VERSA is a software program Federal and State agencies use to manage Social Security disability
claims.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Schedule of Total Costs Reported on Form SSA-4513, State Agency
             Reports of Obligations for SSA Disability Programs
APPENDIX D – Agency Comments
APPENDIX E – North Dakota Disability Determination Services Comments
APPENDIX F – OIG Contacts and Staff Acknowledgments
                                                             Appendix A

Acronyms
C.F.R.     Code of Federal Regulations
DDS        Disability Determination Services
FY         Fiscal Year
ND-DDS     North Dakota Disability Determination Services
ND-DHS     North Dakota Department of Human Services
POMS       Program Operations Manual System
SSA        Social Security Administration
U.S.C.     United States Code
Form
SSA-4513   State Agency Report of Obligations for SSA Disability Programs
                                                                      Appendix B

Scope and Methodology
SCOPE
To achieve our objectives, we:

•   Reviewed applicable regulations, pertinent parts of the Social Security
    Administration’s (SSA) Program Operations Manual System, and other criteria
    relevant to administrative costs claimed by the North Dakota Disability Determination
    Services (ND-DDS) and the drawdown of SSA funds.
•   Interviewed staff at the North Dakota Department of Human Services (ND-DHS),
    ND-DDS, and SSA’s Denver Regional Office.
•   Reviewed State policies and procedures related to Personnel, Medical Services,
    Indirect, and All Other Non-personnel costs.
•   Evaluated, tested, and documented internal controls regarding accounting, financial
    reporting, and cash management activities.
•   Reconciled State accounting records to the administrative costs reported by
    ND-DDS on the State Agency Report of Obligations for SSA Disability Programs
    (Form SSA-4513) for Federal Fiscal Years (FY) 2009 and 2010.
•   Reviewed specific administrative expenditures (Personnel, Medical Services, and All
    Other Non-personnel costs) incurred and claimed by ND-DDS for FY 2010 on the
    SSA-4513.
•   Reviewed the indirect costs claimed by ND-DDS for FYs 2009 and 2010 and the
    corresponding Indirect Cost Allocation Plan.
•   Compared the amount of SSA funds drawn to support program operations to the
    allowable expenditures reported on the SSA-4513.
•   Reviewed the State of North Dakota’s single audit reports for FYs 2009 and 2010.
•   Determined whether unliquidated obligations were properly supported.
•   Conducted limited general security controls testing.

We determined the data provided by ND-DHS and ND-DDS and used in our audit were
sufficiently reliable to achieve our audit objectives. We assessed the reliability of the
data by reconciling them with the costs claimed on the Form SSA-4513. We also
conducted detailed audit testing on selected data elements in the electronic data files.

We performed audit work at the ND-DDS and ND-DHS in Bismarck, North Dakota, and
the audit office in Dallas, Texas. We conducted fieldwork from May through


                                           B-1
November 2011. We conducted the audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives.

METHODOLOGY
The sampling methodology encompassed the three general areas of costs reported on
the SSA-4513: (1) Personnel, (2) Medical Services, (3) All Other Non-personnel costs.
ND-DDS provided FY 2010 computerized data for use in statistical sampling.

Personnel Costs

We sampled 26 employee salary items from 1 randomly selected pay period in
FY 2010. We tested regular and overtime payroll and hours for each individual. We
verified that approved time records were maintained and supported the hours worked.
We tested payroll records to ensure ND-DDS correctly paid employees and adequately
documented these payments.

We also reviewed payments to all medical consultants during a randomly selected
period in FY 2010. We determined whether ND-DDS paid medical consultants in
accordance with approved contracts and verified that selected medical consultants were
properly licensed.

Medical Services Costs

We sampled 50 items using a stratified random sample of medical costs based on the
proportion of medical evidence of record and consultative examination costs to the total
medical costs claimed. We determined whether sampled expenditures were adequately
documented and amounts paid were in accordance with approved rate schedules.

All Other Non-personnel Costs

We stratified all other non-personnel costs into nine categories: (1) Contracted Costs,
(2) Electronic Data Processing Maintenance, (3) New Electronic Data Processing
Equipment/Upgrades (4) Equipment Purchases and Rentals, (5) Communications,
(6) Applicant Travel, (7) DDS Travel, (8) Supplies, and (9) Miscellaneous. We selected
a stratified random sample of 50 items based on the proportion of costs in each
category to the total costs. We also reviewed occupancy costs for a randomly selected
month (two payments) and judgmentally selected and reviewed two additional expense
items (one Electronic Data Processing Maintenance and one Communications). We
traced expenditures to supporting documentation to determine their validity and
accuracy.



                                         B-2
                                                     Appendix C

Schedule of Total Costs Reported on Form
SSA-4513, State Agency Reports of Obligations
for SSA Disability Programs
         North Dakota Disability Determination Services
 REPORTING                          UNLIQUIDATED     TOTAL
   ITEMS        DISBURSEMENTS        OBLIGATIONS   OBLIGATIONS
                              FY 2009
  Personnel        $1,413,497              $0        $1,413,497
  Medical            $649,673              $0          $649,673
  Indirect           $253,072              $0          $253,072
  All Other          $297,391              $0          $297,391
  TOTAL            $2,613,633              $0        $2,613,633
                              FY 2010
  Personnel        $1,665,110              $0        $1,665,110
  Medical            $851,554          $5,465          $857,019
  Indirect           $234,133              $0          $234,133
  All Other          $295,149              $0          $295,149
  TOTAL            $3,045,946          $5,465        $3,051,411
                  Appendix D

Agency Comments
                                                                             Appendix E

North Dakota Disability Determination Services
Comments
             SOCIAL SECURITY DISABILITY DETERMINATION SERVICES
                                 1237 W. Divide Ave - Suite 4
                                Bismarck, North Dakota 58501


                                         April 10, 2012


Mr. Ron Gunia
Audit Director
SSA/OIG
Dallas Audit Division

Dear Mr. Gunia:

In response to your draft audit report A-06-11-11159 dated March 8, 2012, the North Dakota
Department of Human Services’ Disability Determination Services concurs with your findings.

We will continue to review our procedures and processes related to obligation reporting and
expenditures. We will also continue to look for improvements in our obligation reporting
procedures and practices.

We wish to thank the audit team for their assistance and professionalism during the audit
process. We also appreciate their assistance in helping us address these issues.

Please feel free to contact me further if you need any additional information or have further
questions. Thank you.

Sincerely,



Sheri Seil
Administrator
ND Disability Determination Services
                                                                          Appendix F

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division

   Neha Smith, Audit Manager, Denver Audit Office

Acknowledgments

In addition to those named above:

   Lela Mitchell, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-06-11-11159.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
